Certificate of Compliance with Word Count
No. 20-1228
Jaye v. US District Court of Northern District of Iowa
As required by Supreme Court Rules, I certify that this petition
for a rehearing has 1882 words, excluding the table of contents.
I. declare under penalty of perjury that the foregoing is true and
correct.
Executed on April 13, 2021.

Gfons Jaye
" Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com
*Unlike lawyers, federal and state judges and clerks, I can follow the
rules.
"'
-----

